   December 6, 2002




Supply Inventory
Management

Accountability and Control of
Materiel at the Naval Air Depot,
North Island
(D-2003-033)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

NIF                   Naval Industrial Fund
MRP II System         Manufacturing Resource Planning II System
          Office of the Inspector General of the Department of Defense
Report No. D-2003-033                                                   December 6, 2002
   (Project No. D2000LH-0285.003)

                 Accountability and Control of Materiel at the
                       Naval Air Depot, North Island

                                    Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management of aviation spare parts should read this report. The report discusses
compliance with policies and procedures used to account for and control materiel at
Naval Air Depot, North Island.

Background. This is the fourth in a series of reports the Inspector General of the
Department of Defense is issuing that discusses accountability and control of materiel at
DoD maintenance depots. The DoD FY 2002 budget for depot maintenance was
approximately $15.3 billion. The Navy portion of that amount was about $6.8 billion.
Close to $1.5 billion of the $6.8 billion was for operation of three Naval Air Depots. A
significant portion of the $1.5 billion was for purchasing materiel used in repair and
overhaul processes at the depot maintenance facilities. Inventory records at Naval Air
Depot, North Island showed that $55 million of materiel was stored in 19 maintenance
storerooms. The audit covered 12 of the 19 maintenance storerooms.

Depot maintenance facilities need effective inventory control systems to ensure that an
adequate supply of materiel is on hand to maintain efficient levels of operation and to
meet the demands of customers. An effective system is also important to disclose
defective and obsolete goods; prevent loss through damage, pilferage, or waste; and
ensure the accuracy inventory records. Through inventory control, materiel not needed
for current requirements at a depot can be identified and made available for redistribution
to meet other known requirements.

Results. Materiel stored in maintenance storerooms at Naval Air Depot, North Island in
San Diego, California exceeded requirements. Also, significant levels of materiel stored
in work center storerooms were not recorded on accountable records As a result, the
Naval Air Depot, North Island had as much as $40 million of excess, unrecorded materiel
on hand that was not visible to item managers to satisfy known requirements. Also, our
stratified sample of 539 inventory records at Naval Air Depot, North Island produced an
estimated count error rate of about 8.8 percent. Large and inaccurate inventories made
materiel difficult to manage. Unrecorded materiel lacks visibility, making it vulnerable
to loss, obsolescence, and theft. Increased management controls over maintenance
materiel will improve the accuracy of the Naval Air Depot, North Island inventory,
reduce excess materiel, and correct material management control weaknesses identified
in this report. (See the Finding section for the detailed recommendations.)
Management Comments. The Navy concurred with the finding and recommendations
and provided additional comments on specific sections of the report. The Navy
comments were responsive; therefore, no additional comments are required. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                        ii
Table of Contents

Executive Summary                                                   i

Background                                                         1


Objectives                                                         2


Finding
     Management of Materiel at the Naval Air Depot, North Island    3

Appendixes
     A. Scope and Methodology                                      10
                 Management Control Program Review                 11
                 Prior Coverage                                    12
     B. Report Distribution                                        13

Management Comments
     Department of the Navy                                        15
Background
    This report is the fourth in a series of reports resulting from our audit of
    accountability and control of materiel at DoD maintenance depots. The DoD
    FY 2002 budget for depot maintenance was approximately $15.3 billion. The
    Navy portion of that amount was about $6.8 billion. Close to $1.5 billion of the
    $6.8 billion was for operation of three Naval Air Depots. A significant portion of
    the $1.5 billion was for purchasing materiel used in the repair and overhaul
    processes at the depots.

    Naval Air Depot, North Island. Naval Air Depot, North Island (North Island)
    located in San Diego, California, is one of the three Naval Air Depots. The North
    Island mission includes airframe programs, engine programs, component repair,
    in-service engineering and logistics support, and other support. Systems that
    North Island supports include the E-2, C-2, F/A-18, and S-3 aircraft and the
    LM2500 engine.

    Materiel Classification. Materiel used at maintenance depots is generally
    classified as consumable or reparable. Consumables are supplies consumed while
    in use, such as repair parts and fabrication materiel. Once in use, consumables
    lose a separate identity. Reparables are secondary items, or subassemblies, that
    can be restored to a serviceable condition through depot-level maintenance and
    normally exchanged on a one-for-one basis. For each reparable issued to
    maintenance for repair or overhaul, a serviceable reparable should be returned to
    the supply system.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel and goods in process by accounting and physical controls.
    Accounting control involves proper recording and reporting of inventories.
    Physical control involves the physical movement of inventories and consists of
    proper safeguards for receiving, storing, handling, and issuing materiel. The
    purpose of a physical inventory is to validate an item’s storage location and
    determine the condition and quantity of items by physically inspecting and
    counting items.

    Inventory control is important because materiel not needed for current
    requirements at a depot can be identified and made available for redistribution to
    meet other known requirements. Each depot maintenance facility is required to
    record on-hand inventory balances on shop stock records. Shop stocks are
    demand-supported repair parts or consumable items that are stored within the
    depot maintenance facility to support workloads. For accounting purposes, shop
    stocks are considered consumed; however, depot maintenance facilities are
    required to maintain shop stock records to show on-hand inventory balances.
    Depot maintenance facilities need effective inventory control systems to ensure
    that an adequate supply of materiel is on hand to maintain efficient levels of
    operation and to meet the demands of customers. An effective system is also
    important to disclose defective and obsolete goods; prevent loss through damage,
    pilferage, or waste; and ensure the accuracy of inventory records.




                                         1
    Management Oversight. The Naval Air Systems Command is the office of
    primary responsibility for the three Naval Air Depots within the Navy and
    provides overall guidance for managing materiel at the depots. Naval Air
    Systems Command Instruction 4400.5A, “Materiel Inventory Control Policy and
    Procedures for Naval Air Depots,” July 2, 2002 (NAVAIRINST 4400.5A),
    provides policy and procedural guidance for management and control of materiel
    at the Naval Air Depots.

    Storage of Materiel. Materiel used in the fabrication, manufacture, and overhaul
    processes at North Island is stored in either nine Focus stores or 10 Naval
    Industrial Fund (NIF) stores (storerooms). Focus stores are located within depot
    work centers and are managed by Fleet and Industrial Supply Center personnel.
    NIF stores are also located within depot work centers and are managed by
    contractor personnel.

    Manufacturing Resource Planning II System. At North Island, maintenance
    materiel is managed on the Manufacturing Resource Planning II system (MRP II
    System). The MRP II System is a computerized database, which maintains
    on-hand inventory balances and locations of the inventory. The MRP II System is
    the official accountability record for maintenance materiel stored at the
    maintenance facility.

Objectives
    The overall objective was to evaluate the effectiveness of policies and procedures
    used to account for and control materiel at Naval Air Depot, North Island. We
    also reviewed the management control program as it related to the overall
    objective. See Appendix A for a discussion of the scope and methodology, our
    review of the management control program, and prior coverage.




                                         2
           Management of Materiel at the Naval Air
           Depot, North Island
           Materiel stored in maintenance storerooms at North Island exceeded
           requirements. Also, significant levels of materiel stored in work center
           storerooms were not recorded on accountable records. Excess, unrecorded
           materiel accumulated in maintenance storerooms because North Island did
           not comply with the Navy guidance regarding management of materiel
           and did not perform quarterly reviews of materiel to determine whether
           materiel was required. Excess materiel also accumulated because
           maintenance facility personnel were reluctant to turn in unused materiel
           when jobs were completed. Additionally, the lack of an adequate
           management control program and the lack of Naval Air Systems
           Command oversight contributed to the problem of accumulating excess
           materiel. As a result, North Island had about $40 million of materiel in
           excess to known requirements stored at the depot. Also, inventory records
           at North Island had count error rate of about 8.8 percent. Large and
           inaccurate inventories made materiel difficult to manage. Additionally,
           excess, unrecorded materiel was not available to item managers to satisfy
           valid requirements and, lacking visibility, was vulnerable to loss,
           obsolescence, and theft.


Guidance on Managing Maintenance Materiel
    DoD Regulation 4140.1-R, “DoD Materiel Management Regulation,” May 20,
    1998, provides policies for DoD Components regarding management of materiel.
    The regulation states that the DoD Component that has physical custody of
    materiel is responsible for the care and safeguarding of the materiel and shall
    maintain quantitative balance records by individual storage location. The DoD
    Components shall also conduct annual physical inventories and shall take
    appropriate actions to ensure that the on-hand quantity and total item property
    records agree.

    Chief of Naval Operations Instruction 4790.2H, “The Naval Aviation
    Maintenance Program,” April 11, 2001, designates the Naval Air Systems
    Command as the office of primary responsibility for the Naval Aviation
    Maintenance Program and provides policies and procedures for managing
    maintenance materiel at the depots.

    NAVAIRINST 4400.5A states that “all materiel will be accounted for and costed
    to the benefiting job order number.” The instruction also states that unrecorded
    materiel shall not be accumulated in any area of the Naval Air Depots and
    materiel not used on jobs for which it was issued shall be returned to the
    appropriate materiel manager for proper disposition before closing the job. The
    Naval Air Depots are also required to conduct quarterly reviews of materiel stored
    in their depot maintenance facilities to ensure that excess, unrecorded materiel
    does not accumulate. The instruction requires that records of such actions be
    maintained for a period of 2 years.


                                        3
Inventory Valuation
    The value of materiel stored in Focus and NIF stores at North Island was
    unknown. May 13, 2002, inventory records at North Island showed that materiel
    valued at about $48 million was stored in nine Focus storerooms. Inventory
    records as of May 21, 2002, showed that materiel valued at about $7 million was
    stored in 10 NIF storerooms. However, the actual value of materiel stored in the
    Focus and NIF storerooms was understated because some materiel was not
    recorded on accountable records and other materiel recorded on accountable
    records lacked associated cost data. As a result, we were unable to determine the
    overall dollar value of materiel maintained in Focus and NIF storerooms at North
    Island.

    Focus Stores. Inventory records showed that about $48 million of maintenance
    materiel was stored in nine Focus storerooms. However, each of the nine Focus
    storerooms also had residual materiel from completed jobs that was not recorded
    on accountable inventory records. For example, one of the nine Focus storerooms
    maintained a non-accountable inventory record of residual materiel. The
    inventory, valued at about $7 million, was understated because many items on the
    inventory record did not have associated cost data. The remaining eight Focus
    storerooms did not maintain any type of inventory records for residual materiel.

    NIF Stores. The inventory records showed that about $7 million of maintenance
    materiel was stored in 10 NIF storerooms. However, inventory records for each
    of the NIF storerooms had many items that did not have associated cost data. For
    example, 645 inventory records for one NIF storeroom did not have associated
    count data for any of the materiel. As a result, we could not determine the total
    value of materiel stored in NIF maintenance storerooms.


Storage of Maintenance Materiel
    Materiel stored in maintenance storerooms at North Island exceeded
    requirements. Also, large amounts of materiel stored in the work center
    storerooms were not recorded on accountable records and were excess to any
    known requirements. Specifically, materiel valued at about $40 million was
    excess to any known requirements and was not recorded on accountable records.

    Materiel Requirements. Materiel stored in maintenance storerooms within three
    Focus storerooms exceeded requirements. We judgmentally selected locations
    within three of nine Focus storerooms and performed physical inventories. We
    then determined whether materiel was excess. Each of the three Focus
    storerooms had excess materiel, even though NAVAIRINST 4400.45A states that
    materiel not used on jobs for which the materiel was issued is to be returned to the
    appropriate depot maintenance personnel for proper disposition. The three Focus
    storerooms had about $40 million of materiel on hand that was residual materiel
    from completed jobs. Timely disposition of residual materiel is necessary to
    prevent the accumulation of excess materiel.



                                         4
     Unrecorded Materiel. Large amounts of materiel stored in work center
     storerooms were not recorded on accountable records. We judgmentally selected
     for physical inventory 442 line items of residual materiel within 3 work areas
     outside of Focus storerooms. Our physical inventory showed that about
     $21 million of materiel was not recorded in the MRP II System and, therefore,
     was not visible to any potential customers. For example, inventory for 61 line
     items of materiel, valued at about $8.3 million, was left over from completed jobs.
     NAVAIRINST 4400.45A states that all materiel will be accounted for and
     unrecorded inventories shall not be accumulated in any area of a Naval Air Depot.
     Unrecorded materiel results when materiel issued to a job is not used on that job
     and is not properly disposed of at job closeout. NAVAIRINST 4400.5A also
     states that all materiel issued to a job in excess of requirements of that job will be
     returned to the appropriate inventory manager for proper disposition.

     In addition to the unrecorded materiel valued at about $21 million that we
     identified by our physical inventory, we identified about $12 million of additional
     materiel from a 400-page inventory listing within the F/A-18 aircraft shop and
     $7 million from an inventory listing within the hydraulic shop that was not
     recorded on accountable records. Many line items of materiel included in the
     inventory listing did not have unit prices or extended dollar values. The
     unrecorded materiel should be considered excess because it was not identified
     with any ongoing project or as satisfying any known requirement. North Island
     personnel did not comply with Navy guidance regarding the storage of materiel
     and did not determine whether a requirement for the leftover materiel existed. We
     believe that the about $40 million of unrecorded and excess materiel within the
     three maintenance storerooms is a small amount of the unrecorded materiel
     because records regarding excess materiel were maintained in only three of the
     nine maintenance storerooms.

Excess Materiel
     Excess materiel accumulated at North Island because personnel did not comply
     with Navy guidance regarding management of materiel and did not perform
     quarterly reviews of materiel to determine whether the materiel was required.
     Excess materiel also accumulated because maintenance personnel were reluctant
     to turn in unused materiel when jobs were completed. Additionally, the lack of an
     adequate management control program and the lack of Naval Air Systems
     Command oversight contributed to the problem of accumulating excess materiel.

     Purchasing Materiel. North Island purchased required materiel at the beginning
     of jobs and stored that materiel for the life of the job without determining whether
     materiel was already on hand. North Island personnel could not provide records
     showing that jobs were reviewed at closeout to determine whether leftover
     materiel could be used on other jobs as NAVAIRINST 4400.5A requires. Also,
     North Island personnel could not provide records showing that new requisitions
     were placed only after determining that required materiel was not on hand from
     previously completed projects. Further, records showing how North Island
     maintenance personnel accounted for materiel that was reclaimed from repaired




                                           5
    components or removed from assets in maintenance were not available.
    Purchasing materiel more in line with consumption would reduce the excess
    inventories, especially because program requirements can change.

    Quarterly Reviews. North Island personnel did not perform quarterly reviews on
    materiel stored in Focus and NIF storerooms as NAVAIRINST 4400.5A requires.
    The instruction requires that materiel be reviewed quarterly, at a minimum, to
    determine whether requirements exist. Quarterly reviews would have identified
    that excess materiel was accumulating. North Island personnel were aware of the
    requirement to perform the quarterly reviews and prepare reports regarding the
    reviews; however, North Island personnel did not perform the quarterly reviews
    because the Naval Air Systems Command did not request the reports.

    Turn-in of Materiel. Maintenance personnel at North Island stated they were
    reluctant to turn in excess materiel because they believed the excess materiel
    could be used for future needs. Maintenance personnel also stated that they were
    saving customers’ money by not turning in materiel and wanted to avoid the fees
    charged to dispose of the materiel because credit was not given for some of the
    materiel turned in.

    Accuracy of Inventory Records. The inventory records for accountability and
    control of materiel stored in Focus and NIF storerooms at North Island were
    inaccurate. For our physical inventory of the Focus and NIF stores, we
    statistically selected 539 records (479 Focus storeroom records and 60 NIF
    storeroom records) from a universe of 28,582 records (26,673 Focus storeroom
    records and 1,909 NIF storeroom records) to determine whether quantities that
    were on hand matched the quantities identified in Focus and NIF storeroom
    inventory records. We compared the balance shown on the Focus and NIF
    storeroom inventory records with the physical count of items stored in the Focus
    and NIF storerooms.

    The comparison of inventory records with the physical inventories showed count
    errors. By applying statistical weighting to the sample, we calculated that the
    number of errors in the universe of 28,582 records to be about 2,521
    (8.8 percent).

    Because of the high error count rate between the inventory records and the
    physical inventories, we believe that a physical inventory of materiel should be
    performed and inventory records adjusted accordingly.


Management Oversight of Materiel
    The lack of Naval Air Systems Command management oversight of maintenance
    materiel also contributed to the problem of accumulation of excess materiel at
    North Island. Additionally, the lack of a management control program
    contributed to the problem.

    DoD and Navy Regulations. DoD and Navy regulations collectively require that
    maintenance depots maintain quantitative balance records, account for materiel on


                                         6
    formal records from the time of acquisition until the materiel is consumed or
    disposed of, conduct annual physical inventories, and take actions that ensure the
    on-hand quantity and inventory records agree. Those requirements were issued to
    ensure the care and safeguarding of materiel.

    Naval Air Systems Command Policy. NAVAIRINST 4400.5A requires that
    Naval Air Depots review materiel on hand on a quarterly basis to determine
    whether a valid requirement exists for the materiel. The instruction also requires
    a systematic review of materiel on at least a quarterly basis to ensure excess,
    unrecorded materiel does not accumulate. Records of such actions are required to
    be maintained for 2 years.

    North Island personnel stated that required reviews were not performed and that
    reports were not prepared because Naval Air Systems Command did not require
    North Island to submit reports. Naval Air Systems Command should require
    quarterly reports so that it can monitor inventory levels and to ensure that Naval
    Air Depots are in compliance with NAVAIRINST 4400.5A.

    Management Control Program. The lack of a management control program
    also contributed to the excess, unrecorded materiel on hand at North Island. DoD
    regulations require that DoD organizations implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls. Navy
    guidance requires that all components maintain effective accounting and
    administrative controls. Also, each management level is required to continually
    evaluate, document, and test its controls using the specified management control
    review process. The Chief of Command Evaluation, North Island, stated that a
    management control program had not been in existence at North Island for the last
    3 years. Although addressed in the Navy report, “Command Inspection of Naval
    Aviation Depot North Island San Diego, California,” July 17, 2000, the lack of a
    management control program had not been corrected. The Navy report stated that
    the command evaluation office, which is responsible for reviewing management
    controls, did not have an effective management control program, and was not
    reporting to proper authorities. Additionally, the report stated that the command
    evaluation office had not developed a command evaluation plan and did not
    perform reviews and evaluations of programs. However, as of May 2002, North
    Island did not have a management control program in place.


Monetary Benefits
    The audit identified excess, unrecorded materiel valued at about $40 million.
    Therefore, North Island could have $40 million of potential monetary benefits.
    The exact amount cannot be determined until North Island identifies inventory
    excess to prevailing requirements and determines whether the excess materiel can
    be used to satisfy other known requirements.




                                         7
Conclusion
    North Island did not comply with Navy guidance relating to the stockage of
    maintenance materiel and did not effectively manage the materiel. As a result,
    North Island had at least $40 million of materiel on hand that was not recorded on
    accountable records and was excess to any known requirements. Also, inventory
    records had a count error rate of about 8.8 percent. Because materiel stored in
    maintenance storerooms is considered consumed, the materiel loses visibility and
    is not available to supply system item managers to meet other requirements.
    Storage of large quantities of unrecorded materiel makes maintenance inventories
    difficult to manage. Because unrecorded materiel lacks visibility, it is vulnerable
    to loss, obsolescence, and theft.


Management Comments on the Finding
    Navy Comments. The Navy concurred with the finding and provided additional
    comments to specific paragraphs in the finding. The Navy stated that the Naval
    Air Depot, North Island has led the effort to restructure the way supply support is
    provided to the Naval Air Depots by entering into a partnership with the local
    Fleet and Industrial Supply Center. This is relevant in that partial responsibility
    for materiel management is moving to the Fleet and Industrial Supply Center.
    This supply transformation effort is geared at dramatically improving all aspects
    of supply support and related functions at all three Naval Air Depots. The Navy
    also stated that audits such as this one serve to highlight problems and validate the
    wisdom of the ongoing difficult transformation. The Navy further stated that it
    was confident that any deficiencies noted during the audit would be resolved as
    quickly as possible.


Recommendations and Management Comments
    1. We recommend that the Commander, Naval Air Systems Command
    ensure that the Naval Air Depot, North Island:

          a. Comply with Navy guidance regarding the storage of maintenance
    materiel at the depot, performance of quarterly reviews of maintenance
    materiel on hand, and submission of management reports for review.

    Navy Comments. The Navy concurred, stating that the recommended actions
    would be completed by June 30, 2003.

          b. Develop and implement an effective management control
    program.

    Navy Comments. The Navy concurred, stating that the recommended actions
    would be completed by April 30, 2003.




                                          8
2. We recommend that the Commander, Naval Air Depot, North Island
immediately:

        a. Inventory materiel stored in work center storerooms, record all of
the on-hand materiel on accountable records, identify the materiel for which
a valid need exists, and return the items with no known requirement to the
supply system.

Navy Comments. The Navy concurred, stating that the recommended actions
would be completed by September 30, 2003.

       b. Review jobs at closeout to determine whether a need exists for
leftover materiel. Leftover, unneeded materiel should be made visible to
item managers and disposed of in a timely manner.

Navy Comments. The Navy concurred, stating that recommended actions would
be completed by April 30, 2003.

       c. Perform the required quarterly reviews of materiel stored in work
center storerooms to determine whether valid requirements exist for the
materiel.

Navy Comments. The Navy concurred, stating the recommended actions would
be completed by September 30, 2003.

       d. Perform physical inventories of materiel stored in all storage
locations and adjust inventory records accordingly.

Navy Comments. The Navy concurred, stating that the Naval Air Depot, North
Island conducts annual physical inventories and is in the process of inventorying
all work centers to ensure that materiel is recorded in the MRP II. The Navy
stated that the planned actions would be completed by September 30, 2003.




                                     9
Appendix A. Scope and Methodology
   We performed the audit at the Naval Air Depot, North Island located in San
   Diego, California. We contacted personnel at the Naval Air Systems Command
   and the Naval Supply Systems Command.We concentrated on accountability and
   control of repair parts and consumable materiel. Inventory records as of May 13,
   2002, showed that materiel valued at $48 million was stored in nine Focus stores.
   Inventory records as of May 21, 2002, showed that materiel valued at $7 million
   was stored in 10 NIF stores.

   We reviewed DoD and Navy regulations regarding policies, responsibilities, and
   procedures for managing repair parts and consumable materiel at depot
   maintenance facilities. To determine whether repair parts and consumable
   materiel were accurately accounted for and controlled on depot inventory records,
   we physically inventoried materiel stored in the Focus and the NIF storerooms.
   We also determined whether annual inventories and quarterly reviews were
   performed and whether management reports were prepared. We statistically
   selected for review 539 records (479 Focus storeroom records and 60 NIF
   storeroom records) from a universe of 28,582 records (26,673 Focus storeroom
   records and 1,909 NIF storeroom records). The statistical sample included
   records for nine Focus storerooms and records for only 3 of the 10 NIF
   storerooms because data was not available for the other 7 NIF storerooms when
   the sample was drawn. For materiel stored in other areas of work centers, we
   judgmentally selected three work centers for review. We determined unit prices
   by using the Defense Logistics Information Service Federal Logistics Record
   dated November 1, 2000, and North Island inventory records as of May 13, 2002,
   and May 21, 2002. We performed this audit from March through September 2002
   in accordance generally accepted government audit standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the Navy MRP II System for determining the accuracy of inventory records. Our
   review of system controls and the results of data tests showed an error rate that
   casts doubt on the data’s validity. Further, we believe that the monetary valuation
   of materiel was understated because a significant amount of materiel stored in the
   Focus and the NIF storerooms had no extended dollar value. However, when the
   data are reviewed in context with other available evidence, we believe that the
   opinion, conclusions, and recommendations in this report are valid.

   Sample Design. We used a stratified random sample design and in each stratum
   selected simple random samples of records reported as of May 13, 2002, for
   Focus storerooms and random samples of records reported as of May 21, 2002,
   for NIF storerooms, as shown in the following table.




                                       10
                            Population and Sampling

                                      Records in      Records in
                        Store          System          Sample

                     Focus 41            7,292            125
                     Focus 42            4,122            125
                     Focus 43-45         4,457             65
                     Focus 46            3,821             65
                     Focus 47-49         6,981             99
                     NIF 1-3             1,909             60

                        Total           28,582            539


    Sample Results. Using the stratified sample design, we calculated statistical
    projections of the errors of materiel count in storage locations, and the projected
    values of overstated and understated value of the inventories.

    Based on the sample results, and by using a 90 percent confidence level, we
    project that between 1,869 and 3,172 records have materiel count errors at North
    Island, and that the point estimate 2,521 is the mid point of the range of values.
    We further project that the understated value of the materiel in error is between
    $770, 950 and $2,783,729, and that the point estimate, $1,777,339 is the mid point
    of the range of values. Also, the overstated value of the materiel in error is
    between $71,023 and $620,879, and that the point estimate of $345,951 is the mid
    point of the range of values.

    Use of Technical Assistance. Statisticians from the Analysis, Planning, and
    Technical Support Directorate, Quantitative Methods Division, Office of the
    Inspector General of the Department of Defense provided assistance in designing
    a random statistical sampling plan for performing physical inventories and in
    evaluating the results of the samples.

    High-Risk Area. The General Accounting Office has identified several high-risk
    areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                         11
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at North Island regarding storage and
    disposition of maintenance materiel at the depot. As of May 2002, North Island
    did not have a management control program in place.

    Adequacy of Management Controls. We identified material management
    control weaknesses for North Island as defined by DoD Instruction 5010.40.
    North Island management controls for managing depot maintenance materiel were
    not adequate because managers stored for long periods materiel not needed for
    requirements. Also, quarterly reviews to determine whether materiel was needed
    were not performed, including reviews of materiel stored for long periods.
    Recommendations 1. and 2., if implemented, will improve management of
    materiel. A copy of the report will be provided to the senior official responsible
    for management controls within the Navy.

    Adequacy of Management’s Self-Evaluation. North Island did not have a
    management control program in place; therefore, management did not perform a
    self-evaluation.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued three reports that discuss management of repair parts for
    maintenance. Unrestricted IG DoD reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2002-091, “Accountability and Control of Materiel at the
    Corpus Christi Army Depot,” May 21, 2002

    IG DoD Report No. D-2002-003, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot,” October 4, 2001

    IG DoD Report No. D-2001-186, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot – Stockage of Communications-Electronics Materiel,”
    September 21, 2001




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
        Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Air Systems Command
  Commander, Naval Air Depot, North Island
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          14
Department of the Navy Comments




                    15
16
17
18
19
20
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Joseph M. Austin
Commander Jimmy R. Bobbitt, U.S. Navy
Marc E. Avers
Bernard M. Baranosky
Celia J. Harrigan
Steven G. Schaefer
Travis R. Schenck
Thomas J. McKenna
Henry D. Barton
Dharam V. Jain
Kndasamy Selvavel
Sharon L. Carvalho
Elizabeth L.N. Shifflett
